HHS/OIG-Audit--"Review of Bad Debts Reported by Fresenius Medical Care's Facilities Under Medicare's End Stage Renal Disease Program for Calendar Year 1997, (A-01-99-00504)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Bad Debts Reported by Fresenius Medical Care's Facilities Under Medicare's End Stage Renal Disease Program
for Calendar Year 1997," (A-01-99-00504)
October 6, 1999
Complete
Text of Report is available in PDF format (3.12 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Fresenius Medical Care (FMC) allocated $5,980,886 in unallowable costs to 408
facilities claiming reimbursable bad debts in Calendar Year 1997. As a result, reimbursable bad debts claimed by these
facilities were overstated by $731,309. In addition to financial adjustments, we recommended that FMC establish additional
procedures to exclude from future cost reports the unallowable costs identified by our review. The FMC agreed with our
findings and recommendations.